<html>
<title> - NUCLEAR ENERGY INNOVATION AND THE NATIONAL LABS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 
                       NUCLEAR ENERGY INNOVATION
                         AND THE NATIONAL LABS

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 13, 2015

                               __________

                           Serial No. 114-19

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://science.house.gov
       
                                ___________
                                
                                
                 U.S. GOVERNMENT PUBLISHING OFFICE
95-224               WASHINGTON : 2015                 
       
________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5a3d2a351a392f292e323f362a7439353774">[email&#160;protected]</a>  
      
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
F. JAMES SENSENBRENNER, JR.,         ZOE LOFGREN, California
    Wisconsin                        DANIEL LIPINSKI, Illinois
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL                    ERIC SWALWELL, California
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
RANDY HULTGREN, Illinois             ELIZABETH H. ESTY, Connecticut
BILL POSEY, Florida                  MARC A. VEASEY, Texas
THOMAS MASSIE, Kentucky              KATHERINE M. CLARK, Massachusetts
JIM BRIDENSTINE, Oklahoma            DON S. BEYER, JR., Virginia
RANDY K. WEBER, Texas                ED PERLMUTTER, Colorado
BILL JOHNSON, Ohio                   PAUL TONKO, New York
JOHN R. MOOLENAAR, Michigan          MARK TAKANO, California
STEVE KNIGHT, California             BILL FOSTER, Illinois
BRIAN BABIN, Texas
BRUCE WESTERMAN, Arkansas
BARBARA COMSTOCK, Virginia
DAN NEWHOUSE, Washington
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia
                                 ------                                

                         Subcommittee on Energy

                   HON. RANDY K. WEBER, Texas, Chair
DANA ROHRABACHER, California         ALAN GRAYSON, Florida
RANDY NEUGEBAUER, Texas              ERIC SWALWELL, California
MO BROOKS, Alabama                   MARC A. VEASEY, Texas
RANDY HULTGREN, Illinois             DANIEL LIPINSKI, Illinois
THOMAS MASSIE, Kentucky              KATHERINE M. CLARK, Massachusetts
STEVE KNIGHT, California             ED PERLMUTTER, Colorado
BARBARA COMSTOCK, Virginia           EDDIE BERNICE JOHNSON, Texas
BARRY LOUDERMILK, Georgia
LAMAR S. SMITH, Texas
                            C O N T E N T S

                              May 13, 2015

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Randy K. Weber, Chairman, 
  Subcommittee on Energy, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     5
    Written Statement............................................     6

Statement by Representative Alan Grayson, Ranking Minority 
  Member, Subcommittee on Energy, Committee on Science, Space, 
  and Technology, U.S. House of Representatives..................     6
    Written Statement............................................     7

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................     8
    Written Statement............................................     9

                               Witnesses:

Dr. Mark Peters, Associate Laboratory Director, Energy and Global 
  Security, Argonne National Laboratory
    Oral Statement...............................................    10
    Written Statement............................................    13

Mr. Frank Batten, Jr., President, The Landmark Foundation
    Oral Statement...............................................    22
    Written Statement............................................    23

Mr. Nathan Gilliland, CEO, General Fusion
    Oral Statement...............................................    32
    Written Statement............................................    34

Dr. John Parmentola, Senior Vice President, Energy and Advanced 
  Concepts Group, General Atomics
    Oral Statement...............................................    43
    Written Statement............................................    45

Discussion.......................................................    73

             Appendix I: Answers to Post-Hearing Questions

Dr. Mark Peters, Associate Laboratory Director, Energy and Global 
  Security, Argonne National Laboratory..........................    92

Dr. John Parmentola, Senior Vice President, Energy and Advanced 
  Concepts Group, General Atomics................................    95

            Appendix II: Additional Material for the Record

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    98

Report submitted by Mr. Frank Batten, Jr., President, The 
  Landmark Foundation............................................    99

                       NUCLEAR ENERGY INNOVATION.
                         AND THE NATIONAL LABS

                              ----------                              


                        WEDNESDAY, MAY 13, 2015

                  House of Representatives,
                             Subcommittee on Energy
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Randy 
Weber [Chairman of the Subcommittee] presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Weber. Subcommittee on Energy will come to order. 
Without objection, the Chair is authorized to declare recesses 
of the Subcommittee at any time. Welcome to today's hearing, 
entitled ``Nuclear Energy Innovation and the National Labs.'' I 
now recognize myself for five minutes for an opening statement.
    Good morning, and I've already welcomed you to the 
Committee Hearing this morning. We appreciate you all being 
here. Today's hearing will focus on the Department of Energy's 
National Laboratories' research capabilities, and the working 
relationship with the private sector to advance nuclear energy 
technology, both fission and fusion. The Department of Energy 
owns 17 national laboratories, 16 of which are operated by 
contractors as federally funded research and development 
centers. The government owned contractor operated model allows 
the labs flexibility to think outside of the box when tackling 
fundamental scientific challenges. The Department of Energy 
labs grew out of the Manhattan Project, and today provide the 
critical R&D infrastructure that will enable researchers in 
academia and the private sector to develop the technologies of 
tomorrow.
    It's pretty clear that the challenges in nuclear science 
can be quite complicated, and we'll hear more about that from 
our expert witnesses on our panel today. That said, not being a 
nuclear physicist or anything of that sort, I'm going to do my 
best to simplify what we intend to discuss in today's hearing. 
We hope to get a better understanding of what the DOE labs do, 
and how their unique research machines and talented group of 
researches can enable companies to develop new products. This 
is especially relevant for nuclear energy R&D, which requires 
large up-front costs, but may lead to revolutionary technology 
with long term rewards.
    Folks, I would add that the United States has a definite 
national interest in maintaining our position at the forefront 
of nuclear technology development. Nuclear energy, as you know, 
is in a class of its own, with the highest energy density of 
any fuel, and yet yields zero emissions, the big goose egg. It 
is also highly regulated, often a centerpiece of global, 
especially national, politics, and is associated with the 
world's strongest economies. In the United States we invented 
this technology, and cannot forego, we must not forego the 
opportunity to export more efficient and safer reactor systems 
that will mitigate proliferation concerns, while increasing 
global stability by providing a reliable energy source.
    Today we're going to hear from the president of a 
charitable organization that has co-invested with a DOE lab to 
advance a specific nuclear fuel treatment process to convert 
nuclear waste into a useable fuel. We will also hear from the 
Argonne National Lab, which invented this fuel treatment 
process, as well as private companies developing fusion, and 
advanced fission reactors. Needless to say, this is a unique 
panel of witnesses. I thank the witnesses for participating in 
today's hearing, and I look forward to their testimony.
    [The prepared statement of Chairman Weber follows:]

              Prepared Statement of Subcommittee on Energy
                        Chairman Randy K. Weber

    Good morning and welcome to today's Energy Subcommittee hearing on 
nuclear energy innovation. This hearing will focus on the Department of 
Energy's national laboratories' research capabilities and working 
relationship with the private sector to advance nuclear energy 
technology--both fission and fusion.
    The Department of Energy owns seventeen national laboratories, 
sixteen of which are operated by contractors as federally funded 
research and development centers. The government-owned, 
contractoroperated model allows the labs flexibility to think outside 
of the box when tackling fundamental scientific challenges. The DOE 
labs grew out of the Manhattan project and today provide the critical 
R&D infrastructure that will enable researchers in academia and the 
private sector to develop the technologies of tomorrow.
    It's pretty clear that challenges in nuclear science can be quite 
complicated and we'll hear more about that from our expert witnesses. 
That said, I will do my best to simplify what we intend to discuss 
today.
    We will get a better understanding of what the DOE labs do and how 
their unique research machines and talented groups of researchers can 
enable companies to develop new products. This is especially relevant 
for nuclear energy R&D, which requires large up-front costs, but may 
lead to revolutionary technology with long-term rewards. The United 
States has a national interest in maintaining our position at the 
forefront of nuclear technology development. Nuclear energy is in a 
class of its own with the highest energy density of any fuel, and 
yields zero emissions. It is also highly regulated, often a centerpiece 
of global politics, and associated with the world's strongest 
economies.
    In the United States, we invented this technology and cannot forgo 
the opportunity to export more efficient and safer reactor systems that 
will mitigate proliferation concerns and increase global stability by 
providing reliable energy.
    Today, we will hear from the president of a charitable organization 
that has co-invested with a DOE lab to advance a specific nuclear fuel 
treatment process to convert nuclear waste into usable fuel. We will 
also hear from Argonne National Lab, which invented this fuel treatment 
process, as well as private companies developing fusion and advanced 
fission reactors.
    Needless to say, this is a unique panel of witnesses. I thank the 
witnesses for participating in today's hearing and I look forward to 
their testimony.

    Chairman Weber. Mr. Grayson of Florida, you're recognized 
for five minutes.
    Mr. Grayson. Thank you, Chairman Weber, and--for holding 
this hearing, and thank you to our witnesses for agreeing to 
participate this morning.
    For decades the federal government has provided critical 
support for energy research and development. From solar, to 
wind energy, to natural gas recovery, many of the technologies 
allowing us to transition toward a clean energy economy, and 
creating entire new industries, would not be possible without 
Federal support, and the same is true for nuclear energy. This 
morning we will listen to you all regarding the Federal role in 
developing the next generation of nuclear energy technologies.
    I'm particularly pleased that, as part of this discussion, 
we will learn more about innovative future fusion energy 
concepts, concepts that have the potential to accelerate the 
development and deployment of commercial fusion reactors 
dramatically. Fusion holds the promise of providing a 
practically limitless supply of clean energy to the world. In a 
sense, we're already dependent upon it, because the energy that 
we get from that fusion reactor called the sun, in the sky, is 
essential to the existence of life on Earth. It's proving 
difficult for people to replicate what the stars are able to do 
through sheer gravity, but based upon several developments in 
recent years that we'll be hearing about in part today, I am 
confident that we'll get there, and I hope far sooner than 
people may realize.
    I do have my reservations about fission, another subject 
that we'll be discussing today. Not about the physical process 
itself, but the applicability of that to our energy needs. I 
have described fission, in a sense, a failed technology. There 
is a problem with spent fuel that doesn't seem to have a 
solution after many decades of consideration. We've had three 
nuclear disasters worldwide. But the answer to that may not be 
the German solution of simply scrapping. The answer to that may 
be to do further research, and try to find solutions to these 
problems.
    In any event, I'm a strong supporter of fusion energy 
research, which is entirely different, in terms of its impact 
and potential problems, than fission. I believe that now is the 
time to build and operate experiments that are capable of 
demonstrating that man-made fusion systems can consistently 
produce far more energy than it takes to fuel them. I'm eager 
to learn about both the costs and the benefits of a wide range 
of new nuclear technologies, and I also look forward to hearing 
how nuclear energy can play an important role in developing a 
modern clean energy economy. Again, I want to thank you all, 
our witnesses, for providing your insights today, and I look 
forward to hearing from the Chairman and working with the 
Chairman on nuclear energy issues moving forward. Thank you. I 
yield back the remainder of my time.
    [The prepared statement of Mr. Grayson follows:]

              Prepared Statement of Subcommittee on Energy
                  Minority Ranking Member Alan Grayson

    Thank you, Chairman Weber, for holding this hearing, and thank you 
to our witnesses for agreeing to participate this morning.
    For decades, the federal government has provided critical support 
for energy R&D. From solar and wind energy to natural gas recovery, 
many of the technologies that are helping us transition to a clean 
energy economy and creating entire new industries wouldn't be nearly as 
far along as they are today, or would not exist at all, without the 
benefit of federal support and public-private partnerships. The same 
certainly holds true for nuclear energy.
    This morning we are here to discuss the federal role in developing 
the next generation of nuclear energy technologies, and how this 
support may be better structured going forward. I am particularly 
pleased that, as part of this discussion, we will be learning much more 
about some innovative new fusion energy concepts that have the 
potential to dramatically accelerate the development and deployment of 
commercial fusion reactors.
    Fusion holds the promise of providing a practically limitless 
supply of clean energy to the world. We're actually already dependent 
on it--the energy we get from that fusion reactor in the sky, better 
known as the sun, is essential to the existence of life on Earth, 
including us. Of course, it's a bit trickier for people to replicate 
what the stars are able to do with sheer gravity. But based on several 
developments in recent years that I know we'll be hearing more about 
today, I am confident we will get there--and perhaps far sooner than 
many realize. This is why I am such a strong supporter of fusion energy 
research, and I believe that now is the right time to build and operate 
experiments that can finally demonstrate that a man-made fusion system 
can consistently produce far more energy than it takes to fuel it.
    That said, I am eager to learn more about the costs and benefits of 
a wide range of new nuclear technologies over the course of the 
hearing.
    I certainly support an ``all of the above'' approach toward a clean 
energy economy and achieving safer, more cost-effective, and 
environmentally friendly ways to utilize nuclear energy can play an 
important role in this mix. We just need to make sure that we are 
making the smartest investments we can with our limited resources, and 
that they are in the best interests of the American people.
    Again, I want to thank the witnesses for being willing to provide 
their insights today, and I look forward to working with the Chairman 
and with all of the stakeholders in this critical area moving forward.
    Thank you, and I yield back my remaining time.

    Chairman Weber. I thank the gentleman from Florida, and now 
recognize the gentleman from Texas, the Chairman of the full 
Committee, Chairman Smith.
    Chairman Smith. Thank you, Mr. Chairman. In today's hearing 
we'll examine opportunities for advances in nuclear fission and 
fusion energy technologies. We will hear from the Associate 
Laboratory Director at Argonne National Lab, the home of the 
world's first reactor to demonstrate a sustainable fission 
chain reaction. Argonne National Lab is responsible for 
foundational research and development in nuclear energy that 
has led to many operating reactors and reactor concepts that 
will be discussed today. These include the integral fast 
reactor, and pyroprocessing. We will also hear from witnesses 
who represent private companies and a charitable organization, 
all of whom have invested in the development of advanced 
fission or fusion reactor designs.
    Nuclear energy provides reliable zero emission power. This 
technology represents one of the most promising areas for 
growth and innovation to increase economic prosperity and lower 
the cost of electricity over time. This will help keep the 
United States globally competitive. The Department of Energy's 
national laboratories provide vital opportunities for the 
private sector to invest in innovative energy technologies. 
This includes its open access user facilities, which are one of 
a kind machines that allow researchers to investigate 
fundamental scientific questions. These facilities enable a 
wide array of researchers from academia, defense, and the 
private sector to develop new technologies without favoring one 
type of design. This represents a better approach than simply 
picking winners and losers through energy subsidies.
    DOE's labs also provide the fundamental research 
capabilities that lead to scientific publications or 
proprietary research. In this public/private partnership, 
private companies take on the risk for commercializing 
technology, while the government enables researchers to conduct 
specialized research that would not be possible without Federal 
support. DOE's national labs keep America's best and brightest 
scientists working on groundbreaking research here in the 
United States, instead of moving to research projects overseas.
    I am hopeful that today's hearing can demonstrate the 
importance of foundational research capabilities in the 
national labs that will lead to the next generation of nuclear 
energy technology. Inevitably, and I hope sooner rather than 
later, all Americans will benefit from this research.
    Now, Mr. Chairman, before I yield back, I just want to 
apologize to our witnesses, I have another Subcommittee meeting 
of another Committee that I need to go to briefly, and then 
hope to return, so--but do look forward to meeting and hearing 
what the witnesses have to say today.
    [The prepared statement of Chairman Smith follows:]

      Prepared Statement of Full Committee Chairman Lamar S. Smith

    Today's hearing will examine opportunities for advances in nuclear 
fission and fusion energy technologies. We will hear from the associate 
laboratory director at Argonne National Lab, the home of the world's 
first reactor to demonstrate a sustainable fission chain reaction.
    Argonne National Lab is responsible for foundational research and 
development in nuclear energy that has led to many operating reactors 
and reactor concepts that will be discussed today. These include the 
integral fast reactor and pyroprocessing. We will also hear from 
witnesses who represent private companies and a charitable 
organization, all of whom have invested in the development of advanced 
fission or fusion reactor designs.
    Nuclear energy provides reliable, zero-emission power. This 
technology represents one of the mostpromising areas for growth and 
innovation to increase economic prosperity and lower the cost of 
electricity over time. This will help keep the United States globally 
competitive.
    The Department of Energy's (DOE) national laboratories provide 
vital opportunities for the private sector to invest in innovative 
energy technologies. This includes its open-access user facilities, 
which are one-of-a-kind machines that allow researchers to investigate 
fundamental scientific questions.
    These facilities enable a wide array of researchers from academia, 
defense, and the private sector to develop new technologies without 
favoring one type of design. This represents a better approach than 
simply picking winners and losers through energy subsidies.
    DOE's labs also provide the fundamental research capabilities that 
lead to scientific publications or proprietary research. In this 
public-private partnership, private companies take on the risk 
forcommercializing technology while the government enables researchers 
to conduct specialized researchthat would not be possible without 
federal support.
    DOE's national labs keep America's best and brightest scientists 
working on groundbreaking researchhere in the United States instead of 
moving to research projects overseas. I am hopeful that today's hearing 
can demonstrate the importance of foundational research capabilities in 
the national labs that will lead to the next generation of nuclear 
energy technology.
    Inevitably, and I hope sooner rather than later, all Americans will 
benefit from this research.
    Thank you Mr. Chairman and I yield back.

    Chairman Weber. Thank you, Mr. Chairman. Let me introduce 
our witnesses. Our--Dr. Mark Peters, our first witness today, 
is the Associate Laboratory Director for Argonne National 
Laboratory's Energy and Global Security Directorate, which 
includes Argonne's programs in energy research and national 
security. Dr. Peters has worked with the national labs for 20 
years. In addition, he serves as a senior advisor to the DOE on 
nuclear energy technologies and nuclear waste management. Dr. 
Peters received his Bachelor's Degree in geology from Auburn 
University, and his Ph.D. in geophysical sciences from the 
University of Chicago. Welcome, Dr. Peters.
    Our next witness is Mr. Frank Batten, Junior, Chairman and 
CEO of Landmark Media Enterprises, and President of the 
Landmark Foundation. The Landmark Foundation focuses its 
efforts on helping local education and human service 
organizations. Mr. Batten received his Bachelor's Degree in 
history from Dartmouth, and his MBA from the University of 
Virginia. Welcome, Mr. Batten. Am I pronouncing that right?
    Mr. Batten. Yeah.
    Chairman Weber. Our next witness is Mr. Nathan Gilliland, 
okay, Chief Executive Officer of General Fusion. Before joining 
General Fusion, Mr. Gilliland served as an entrepreneur-in-
residence with Kliner, Perkins, Caufield, and Byers, one of the 
world's largest venture capital firms. In addition, he was the 
president and co-founder of Harvest Power, a renewable energy 
company that turns organic waste into natural gas and 
electricity. Mr. Gilliland received his Bachelor's Degree in 
political science from the University of California, Berkeley. 
Welcome, Mr. Gilliland.
    Our final witness today is Dr. John Parmentola, Senior Vice 
President of General Atomics' Energy and Advanced Concepts 
Group. Dr. Parmentola oversees a team of nearly 475 from over 
90 institutions worldwide who lead the way in international 
nuclear fusion and fission research and development. Before 
joining General Atomics, Dr. Parmentola served as Director of 
Research and Laboratory Management for the United States Army. 
In addition, he served as Science and Technology Advisor to the 
Chief Financial Officer of the Department of Energy. Dr. 
Parmentola received his Bachelor's Degree in physics from 
Polytechnic Institute of Brooklyn, and his Ph.D. in physics 
from MIT. Welcome, Dr. Parmentola.
    We're going to turn to our witnesses now, and you all are 
recognized for five minutes. We ask that you keep your 
testimony to five minutes. Dr. Peters, we'll start with you.

                 TESTIMONY OF DR. MARK PETERS,

                 ASSOCIATE LABORATORY DIRECTOR,

                  ENERGY AND GLOBAL SECURITY,

                  ARGONNE NATIONAL LABORATORY

    Dr. Peters. Good morning. Thank you, Mr. Chairman. I would 
like to thank Chairman Smith, Chairman Weber, Ranking Member 
Grayson, Congressman Lipinski, Congressman Hultgren, and the 
other distinguished members of the Subcommittee for your 
invitation to testify here today on this important subject. My 
name is Mark Peters, and I am the Associate Laboratory Director 
for Energy and Global Security at Argonne National Laboratory. 
And, Mr. Chairman, I've prepared a detailed written testimony 
that I request be submitted for the record, and I'll summarize 
it here.
    Chairman Weber. Without objection.
    Dr. Peters. The history of nuclear energy development in 
the U.S. is one of cooperation amongst the federal government, 
its DOE national labs, universities, and industry. The 
breakthroughs and designs achieved by the scientists and 
engineers of the national laboratory complex, and Argonne in 
particular, inform and drive every nuclear reactor design in 
the world today.
    The U.S. continues to be the lead source of innovation 
globally for the current generation of light water reactors, or 
LWRs, and small module reactors, or SMRs, as well as leading in 
regulatory process, independence, and rigor. But a 30 year 
hiatus in the construction of new U.S. reactor projects has 
impacted domestic production capacity, investment in technology 
and innovation, and the domestic supply chain.
    The country's leadership in global nuclear energy could be 
further compromised as the world begins to move beyond the 
current generation of nuclear reactors to new designs, known as 
advanced, or generation four, reactors that can address the 
future challenges of nuclear energy. Other countries are 
forging ahead with new reactors that, when coupled with 
advanced fuel cycles, can address long running challenges with 
nuclear waste management, make significant gains in efficient 
use of fuel, and operate even more safely than current 
generation reactors, further addressing lingering public 
acceptance and confidence challenges.
    Without a commitment to advanced reactor technology 
development and demonstration in the U.S., our country runs the 
risk of defaulting on the return of 7 decades investment in 
nuclear SMT and infrastructure. That lead position has allowed 
the U.S. to become the recognized world leader of efforts to 
control nuclear proliferation, ensure the security of nuclear 
materials, and promote safe and secure operation of nuclear 
power plants. If the U.S. is to ensure its rightful place at 
the forefront of advanced nuclear energy systems, it will 
require a new commitment to the type of public/private 
partnership that led to the creation of our current fleet of 
light water reactors.
    Our national labs and universities continue to work closely 
with industry to accomplish much of the research necessary to 
facilitate advanced reactors, but substantial work remains. A 
new generation of advanced reactors will require refinement and 
demonstration of new technologies, as well as a test reactor 
and demonstration test bed for demonstration of advanced 
reactors. More work remains to be done on advanced fuel cycles 
and providing options to close the fuel cycle, decreasing the 
amount of waste that must be stored, and simplifying geologic 
disposal requirements.
    Perhaps no effort better illustrates how cooperation 
between national laboratories and industry can enable important 
breakthroughs in nuclear energy than the long running 
collaboration between Argonne and General Electric, Hitachi 
Nuclear Energy. This collaboration stretches back to the '50s, 
in the days when we were working on experimental boiling water 
reactors in collaboration with GE, and more recently in GE's 
advanced reactor design known as Prism, which also has its root 
in this public/private partnership. And Prism was created using 
principles demonstrated at Argonne's Experimental Breeder 
Reactor II, or EBR-II, and further refined in the Integral Fast 
Reactor, or IFR.
    With the creation of EBR-II, and the following design of 
IFR, the march towards continued U.S. leadership seemed 
inevitable, however, in the 1970s and '80s, a variety of 
developments coalesced to move the U.S. away from nuclear 
energy and next generation reactors, and closing the fuel 
cycle. Today this is buried beneath the fight--rising levels of 
greenhouse gases in our atmosphere, and once again drive the 
U.S. to regain its place at the forefront of nuclear 
technology.
    So our vast nuclear energy infrastructure, developed over 
decades with the combined capabilities of industry and the 
federal government, is at a crossroads, where existing nuclear 
reactors are set to be retired over the coming decades. While 
light water cooled SMRs can serve as a bridge to the next 
generation of advanced reactors, many issues remain that can be 
addressed by advance reactor technology. If we wish to charter 
a way forward towards those solutions, we must once again 
engage our public and private resources in a new effort to 
build the next generation of reactors. Much of the technology 
is developed and demonstrated on a small scale, although 
substantial work remains. The next logical step is to unify 
these technical efforts and successfully deploy a test reactor 
and test bed to demonstrate the advanced reactor systems.
    The time we have to demonstrate this technology is short, 
due to the age of our current light water reactor fleet. Action 
over the short term is required to demonstrate new technologies 
by 2030, when retirement of existing nuclear power plants will 
accelerate. Thank you, and I look forward to answering any 
questions you might have.
    [The prepared statement of Dr. Peters follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
       
    Chairman Weber. Thank you, Dr. Peters.
    Mr. Batten, you're recognized.

              TESTIMONY OF MR. FRANK BATTEN, JR.,

               PRESIDENT, THE LANDMARK FOUNDATION

    Mr. Batten. Chairman Smith, Ranking Member Grayson, good 
morning. My name is Frank Batten, and I'm the President of the 
Landmark Foundation. We're a private foundation that supports 
educational, environmental, and human service organizations. I 
greatly appreciate the opportunity to testify today regarding a 
positive example of a near completed cooperative research and 
development agreement, or CRADA. And we did this with the 
Department of Energy's Argonne National Lab. The CRADA relates 
to what we believe should be an important component of our 
country's national energy policy, the--which is the recycling 
of used nuclear fuel through a demonstrated U.S. technology 
called pyroprocessing. We have no commercial interest in this 
area, and no financial agenda, but we believe that the U.S. can 
significantly benefit from recycling used nuclear fuel through 
pyroprocessing. While private industry can, and should, play a 
role, federal government R&D funds are essential if the 
benefits of this technology are to be realized.
    Pyroprocessing has been the subject of Federal R&D for many 
years, and Argonne has led the way. The technology is now 
capable of recycling used fuel from the country's nuclear power 
plants for re-use to generate electricity in advanced reactors. 
Pyroprocessing is good energy policy, it's environmentally 
sound, it promotes effective use of resources, it can 
contribute to addressing climate change, and it holds the 
promise of significantly mitigating the country's used nuclear 
fuel disposition issue.
    I would like to briefly summarize the success story of our 
partnership with Argonne, which relates to the design for a 
pilot reprocessing facility. I would also like to brief the 
Subcommittee on an analysis undertaken by Energy Resources 
International, or ERI. We commissioned and funded the ERI 
analysis outside of the CRADA. The ERI report analyzes the 
costs and benefits of using pyroprocessing and advanced 
reactors on a commercial scale. Now, I've attached a copy of 
the ERI report to my testimony, and ask that it be included in 
the hearing record.
    The Landmark Foundation entered into the CRADA with Argonne 
over two years ago. We invested $5 million, and the federal 
government invested $1 million in the CRADA. The purpose of the 
CRADA is to develop the conceptual design and a robust cost 
estimate for a 100 metric ton per year pilot scale 
pyroprocessing demonstration facility. The CRADA is a 
particularly good use of the public/private partnership 
concept. It leverages prior government funded work, it takes 
that work to the next level, and it builds a bridge for the 
U.S. Government to move forward with the detailed design for 
the pilot facility. All of this, we hope, will spur additional 
federal funding for a pilot facility.
    The ERI report provides a detailed assessment of the costs 
and technical factors associated with a realistic fuel cycle 
using pyroprocessing and advanced reactors. ERI concluded that 
the potential exists to reduce the volume of used commercial 
fuel, requiring permanent disposal by 50 percent or more, 
avoiding the need for a second geologic repository. Avoiding a 
second repository would save the U.S. Government tens of 
billions of dollars.
    According to ERI, re-use of pyroprocessed fuel also would 
simply the design of a first geologic repository, and reduce 
the volume of repository space needed by more than 50 percent. 
This would significantly contribute to reducing the federal 
government's financial liability associated with its obligation 
to receive used fuel from its utility standard contract 
holders.
    I'm pleased to be here today to talk both about the success 
of our partnership with Argonne, and the underlying benefits of 
further developing the pyroprocessing technology. Thank you for 
your time and attention.
    [The prepared statement of Mr. Batten follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
       
        
    Chairman Weber. Thank you, Mr. Batten.
    Mr. Gilliland, you're recognized.

               TESTIMONY OF MR. NATHAN GILLILAND,

                      CEO, GENERAL FUSION

    Mr. Gilliland. Chairman Weber, Ranking Member Grayson, 
Chairman Smith, thank you very much for the opportunity to 
testify today about the emergence of new innovative fusion 
energy concepts, and the importance of governmental support in 
working with U.S. labs. My name's Nathan Gilliland, Chief 
Executive Officer of General Fusion, one of the leading private 
fusion energy companies. I'll make five point--key points 
today, and have done so in my written statement in more detail, 
which I would like to submit to the record.
    First, I would echo what Ranking Member Grayson said. The 
game changing nature of fusion energy bears repeating. It's 
energy production that is safe, clean, and abundant. In a 
fusion reaction, one kilogram of hydrogen is equivalent to ten 
million kilograms of coal. It's the energy density comment that 
you made earlier. Humanity would have abundant energy for 
millions of years. There's also no long lived radioactive 
waste, no chance of meltdown in fusion reactions. The benefits 
to energy security can hardly be overstated.
    Second, U.S. support for magnetic fusion programs like 
ITER, and inertial confinement programs like NIF, have created 
an enormously beneficial source of research. ITER and NIF have 
justifiably been the highlights of the U.S. fusion energy 
framework, and developed key insights into plasma behavior, 
material science, simulation codes, and many others. These 
programs should continue to be supported.
    Third, because of this historical research, innovation in 
alternative pathways to fusion have accelerated. These 
alternative approaches, both in private companies and in labs 
and university, offer potentially faster and less expensive 
concepts, and demonstrable progress is being made, both in 
these labs, universities, and the private companies. Of 
particular note, work at Sandia, University of Washington, and 
Los Alamos are worth noting, as well as the three leading 
private companies, Tri-Alpha Energy, which is based in Southern 
California, Helion, which is based in Seattle, and ourselves, 
General Fusion. The progress of these alternative concepts was 
featured last summer in Science and Nature magazines. Novel 
fuels are being tested, new simulation tools developed, and 
we're all setting records for the stability of our plasma, so 
real progress is being made.
    Increased commercial viability, lower cost power, and 
faster progress are common threads in these alternative fusion 
concepts. Alternative approaches are reducing costs by applying 
existing industrial technologies to the challenge of fusion, 
primarily avoiding costly large lasers, or costly 
superconducting magnets. Some have novel ways to protect the 
fusion reactor from neutrons, others have simpler ways to 
convert heat into electricity, but, of course, there are no 
silver bullets. These alternative approaches tend to be less 
researched and studied, and are simply newer. The physics have 
not been fully explored. But we would argue the viability and 
efficacy of these alternative approaches can be demonstrated 
for less money. Some will show rapid progress, and others will 
not, but, dollar for dollar, progress or failure can be 
demonstrated much more quickly.
    Fourth, though the majority of fusion research has been 
publicly funded, there is a place, and an important place, for 
private companies who can build on previous research, and 
potentially innovate faster. The Human Genome Project is a 
great analogue, and a great example. The NIH built a core of 
research that was very strong, and from this private industry 
was able to efficiently and rapidly innovate to sequence the 
genome. We see parallels in fusion energy. World leading 
historical research is being done at labs and universities, and 
has led to rapid innovation. And just like every energy 
industry, oil and gas, solar, wind, there will be multiple 
approaches that succeed in fusion. It's not a winner-take-all 
industry.
    Fifth, and finally, going forward we'd like to see more 
open innovation and information sharing across private industry 
labs and universities. For example, we all use computer 
simulation. It's a very important tool for us. We'd like to see 
co-development of simulation codes, more sharing of simulation 
codes. Another thing we'd like to see is greater emphasis on 
exchanges of physicists and Ph.D.'s across private industry and 
government labs. This leads to better sharing of historical 
research, current research, and the private sector would 
absolutely put resources into doing this. And labs and 
universities can help here at no cost to them.
    Ultimately, more cooperation between government supported 
efforts and private industry can only accelerate progress. 
There is no value in silence. Let's push for more private/
public partnerships, as Dr. Peters mentioned, and I'm sure Dr. 
Parmentola will as well. Let's push for more private/public 
partnerships to share data, build faster, and accelerate 
progress. The world needs fusion, and the faster the better. 
Thank you.
    [The prepared statement of Mr. Gilliland follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]    
      
    Chairman Weber. Thank you, Mr. Gilliland.
    Dr. Parmentola, you're recognized.

               TESTIMONY OF DR. JOHN PARMENTOLA,

                     SENIOR VICE PRESIDENT,

              ENERGY AND ADVANCED CONCEPTS GROUP,

                        GENERAL ATOMICS

    Dr. Parmentola. Good morning. Thank you, Chairman Weber, 
Ranking Member Grayson, and other members of the Subcommittee 
for holding this hearing on this important subject. I believe, 
as many others do, that it is important to the future of 
national security, energy security, and environmental quality 
of the United States that ample supplies of competitively 
priced nuclear energy are available.
    Unfortunately, it appears that nuclear energy is dying in 
the U.S. There are few new plants being built, several have 
closed recently, and most of the 99 existing plants will be 
closed down within the next 40 years. To place this in context, 
last year nuclear was 20 percent of the electricity consumed by 
Americans, who paid 80 billion for it. We believe this death 
spiral can be avoided, but it'll require active involvement by 
the U.S. Government.
    The energy market is indicating that existing nuclear power 
technology is not commercially viable. For nuclear power to 
play any future role, the U.S. will need new safer nuclear 
power technologies that will produce significantly cheaper 
electricity. However, the private sector will not be able to 
develop this on its own. The investments required are very 
large, they are risky, and, in any event, will take more than a 
decade before they might yield any revenue from electricity 
production, and even longer to yield any profit. As these new 
options are developed, and private firms begin to see their way 
to risk reduction and making profits, private investment will 
increase, the government will be able to withdraw, and the 
market will decide which would be commercially viable.
    Let me now discuss GA's interest in a new advanced test 
reactor. We have a new reactor concept that needs a testing 
facility. We call it EM-2, and we designed it to address the 
four most prominent concerns with nuclear power, its safety, 
its cost, its waste, and its proliferation risk. We believe it 
is a potential breakthrough technology for the United States, 
however, research is required to realize it.
    To develop EM-2, a compact gas cooled fast reactor, we 
looked at what physics indicates we must do. One, we must go to 
higher power densities through a compact reactor core using 
fast neutrons. Two, we must go to higher temperatures so a 
higher percentage of the heat produced is turned into 
electricity. By doing this, we can make the same amount of 
electricity in a smaller reactor, small enough that it could be 
made in a factory and shipped by truck to a site for 
deployment. We believe we could increase the efficiency of 
power production from percentages today, in the low 30s, to the 
lower 50s.
    The bottom line is we believe that we could reduce the cost 
of electricity up to 40 percent below that of existing nuclear 
reactors, and reduce their waste by up to 80 percent. But to do 
this, we have to develop new materials what will be able to 
endure the higher temperatures, and endure the more energetic 
and neutron rich radiation environment inside the reactor. We 
need a new testing facility with high performance 
characteristics in which to do this research work. But there 
are also a number of other companies and national ads that are 
advocating the use of fast neutrons, and going to high 
temperatures, albeit with different advanced reactor designs. 
These also require a new testing facility that conduct tests 
in, say, three years that would show what happens to these 
materials in an actual advanced reactor during a period of 30 
years.
    It would not make business sense for any company, or even 
all interested companies together, to pay for the capital costs 
to construct such a facility, given the large investment, the 
risks, and the very long lead times involved for a return on 
investment. Currently there is no U.S. facility with the 
requisite high performance characteristics to do this type of 
research. The best we have are the advanced test reactor at 
Idaho National Laboratory, and the high flux isotope reactor at 
Oak Ridge, but neither of these is appropriate for a number of 
reasons. The best in the world is in Russia, BOR-60, but this 
is being shut down soon for other reasons.
    In any event, it would seem odd to develop such a national 
security technology in Russia. Therefore, we suggest you 
consider building such a facility in the United States. It 
would be called the Versatile Advanced Test Reactor. It would 
be a highly neutron rich fast reactor capable also of producing 
thermal neutrons. We like versatile because it should be 
designed in such a way that it could be used to test all new 
reactor concepts, whether they involve molten salt, a liquid 
metal reactor, a liquid bismuth reactor, a gas reactor, or even 
light water reactor.
    The Versatile Advanced Test Reactor would be a user 
facility in the same way that the DOE Office of Science 
managers other highly successful facilities. It would 
contribute to the public good by providing the development of 
future nuclear energy options. This is an excellent example of 
what the government should do because industry cannot, or will 
not, do it. The U.S. has a great opportunity to lead the world, 
and give nuclear power its best chance to become economically 
viable. This Committee could start by enacting a law calling 
for a study to be done, with industry participation, to 
determine a design for such a reactor, what its capabilities 
would be, and what it might cost. We believe that if the U.S. 
were to build such a test facility, it would be key to the 
development of nuclear reactors that really could spark a true 
renaissance of nuclear power in the United States.
    Thank you for inviting me to share our views, and for your 
interest in finding ways to sustain an extremely important 
future energy source for our nation. Thank you.
    [The prepared statement of Dr. Parmentola follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
        
    Chairman Weber. Thank you, Dr. Parmentola. I now recognize 
myself for five minutes to begin the questioning.
    Mr. Batten, you've come here today with a unique story of a 
charitable foundation that has invested in a specific process 
of nuclear fuel recycling, all for the purpose of jump starting 
an advanced reactor technology that would reduce waste, 
increase resource utilization, and mitigate proliferation 
concerns, obviously. So how do you hope this--I think you 
pronounced it CRADA?
    Mr. Batten. CRADA, yes.
    Chairman Weber. CRADA? Um-hum.
    Mr. Batten. C-R-A-D-A.
    Chairman Weber. Right, Cooperative Research and Development 
Agreement, will make a difference, and what would be the 
benefits to the United States from successful pyroprocessing 
and IFR, Integral Fast Reactor, deployment? And then I've got a 
follow-up question about something you said. How do you hope 
this will make a difference?
    Mr. Batten. Maybe I'll start with a little bit of 
background. I live in Norfolk, Virginia, which is only a few 
feet above sea level, so it's--tells how we got into this.
    Chairman Weber. How many feet?
    Mr. Batten. A few feet.
    Chairman Weber. Okay.
    Mr. Batten. You know, like, 2, 3, 4 feet, depending on 
where you are. And--so we're very concerned about the rising 
seas that could be caused by climate change. And so we looked 
around for--well, what could we do to help with that transition 
to a low carbon energy? And we concluded that lots of people 
were working on wind, and solar, and batteries, and, you know, 
savings of--energy savings, all of which are very important, 
and all of which deserve Federal research dollars. We found out 
that not nearly as much attention was being given to nuclear 
power.
    So within that it seemed like there were two issues. One 
was nuclear waste, was there anything that could be done to 
reduce the nuclear waste problem, since that's such a hindrance 
to the expansion of nuclear power? And pyro processing seemed 
like a very promising technology to be able to reduce the 
nuclear waste problem. And, of course, advanced reactors, fast 
reactors, when coupled with recycling, also lets you use much 
more of the energy in uranium. The current, you know, light 
water reactors use about one percent of the energy in uranium. 
Fast reactors, with recycling, could use 99 percent of the 
energy in the uranium.
    Chairman Weber. Okay. And I applaud you for that, by the 
way. Just kind of a follow-up question, you said in your 
comments, if I was following--heard correctly that the 
pyroprocessing was developed in the United States?
    Mr. Batten. It was developed at Argo National Lab by their 
work in Chicago, and also by their work out with the 
Experimental Breeder Reactor II. They have a fuel cycle 
facility attached to that.
    Chairman Weber. Okay.
    Mr. Batten. So Argonne really developed that.
    Chairman Weber. But do I understand that France uses more 
reprocessed fuel, as it were, than we do? Do you know?
    Mr. Batten. Yes. France--the U.S. currently is not 
recycling fuel. France is reprocessing, use aqueous reprocess.
    Chairman Weber. So they're not--they are not using our 
technology?
    Mr. Batten. That's correct, yes.
    Chairman Weber. Okay.
    Mr. Batten. The difference is the aqueous reprocessing 
produces pure plutonium, which people are obviously concerned 
about as a proliferation risk, whereas the pyroprocessing 
produces a mixture of plutonium, all sorts of different 
isotopes mixed together with other trans-uranics, or those 
other elements to the right of uranium.
    Chairman Weber. Would you compare and contrast a cost 
analysis to the two? Are they roughly the same, or have you--do 
you----
    Mr. Batten. I do not know the answer to that.
    Chairman Weber. Okay. Dr. Parmentola, given the United 
States budget constraints--obviously Congress must be careful 
with every dollar we spend. That said, as many of you have 
already said, there are some activities that the private 
enterprise--private companies cannot undertake, but where the 
federal government can actually support the research and 
infrastructure to support that private investment.
    So, Doctor, can you explain how an open access fast reactor 
user facility could enable private industry to deploy stranded 
capital that is simply waiting to be spent on research and 
development for new reactor designs that are more efficient, 
and even safer than today's technology? That's my question, but 
before you get there, one of the terms I heard bantered around 
about this process is, if we would support the development of a 
library where, for example, we could have the resources, and 
companies could come in, and kind of draw from those resources. 
And I think you actually had--or maybe it was Dr. Peters who 
called it a test reactor and a test bed. Was that the term you 
used?
    Dr. Parmentola. Yes, sir.
    Chairman Weber. Okay. And so, Dr. Parmentola, can you 
explain how that open access fast reactor user facility would 
help?
    Dr. Parmentola. Yes. First of all, currently there are 
companies that are spending R&D in trying to advance their 
advanced reactor designs. In the private sector, the amounts of 
money that go towards this, at least currently, relatively low. 
We focus mainly on the high risk issues that need to be reduced 
in order to make decisions about going forward. However, a 
large fraction of the issues that need to be addressed require 
a new test facility. Now, if such a test facility was built, 
this would enable the private sector to be able to go to these 
facilities, utilize more of its capital to be able to do the 
testing, and reduce the risk associated with realizing these 
advanced concepts.
    As I said in my testimony, the type of reactor we're 
looking for is a high performance reactor. This would speed up 
testing, the productivity associated with what companies would 
do would go up, and it would enable us to be able to make 
decisions, rather significant decisions, about going forth and 
actually building these advanced reactors.
    Chairman Weber. Okay. Thank you. And back to Dr. Peters, 
you pointed out that the U.S.'s non-proliferation mission could 
be adversely affected by foregoing the timely development of 
advanced reactors for export because that void will be filled 
otherwise by supplier nations. Would you elaborate--I think we 
probably--most us understand, but would you elaborate on how 
exporting reactor technology is a component to the United 
States' security and non-proliferation mission, please, sir?
    Dr. Peters. Sure. So let me start by saying that the past 
shows us that, when you look at the worldwide reactors that are 
operating, U.S. export let to that, and the regulatory process 
that the U.S. established is also gold standard worldwide, so 
the past tells us that we can actually export our technologies 
and our ideas, and have a positive impact, and be a leader. 
Now, the matter of export's outside of a national labs purview. 
It's a policy and industry play, but it--past shows that it can 
work in the future. So I would say it definitely should be 
looked at very carefully, and I think it does establish 
international leadership.
    But I do want to make the point also that there's a 
component of this that also is related to the R&D and the 
necessary infrastructure, because if you--the national labs and 
university system in the U.S. is world class in the nuclear 
space, but that--we have it now, but if we don't continue 
investing, we'll lose that capability, and that's an important 
part of getting that seat at the table. Having that world 
leading S&T capability is very important. So, from the labs' 
and universities' perspective, that continued investment--but 
getting on the path of research, development, demonstration, 
and ultimately deployment domestically can't do anything but 
help international leadership.
    Chairman Weber. Along those lines, you said in your 
prepared testimony that you provided the NRC will need to 
establish a new licensing structure to accommodate the next 
generation of more safer, efficient safe rectors. So can you 
explain to us further why the NRC will need to establish a new 
licensing framework?
    Dr. Peters. The NRC has a broader framework, but they have 
a set of general design criteria and detailed regulations that 
are focused on light water reactors, pressurized reactors, and 
boiling water reactors. So if we're going to move forward with 
licensing advanced reactors, we have to go and develop general 
design criteria, to license those machines.
    Now, there is an effort already funded by DOE working with 
NRC, and the labs are supporting that, but it needs to be 
scaled up, let's say, in terms of budget, and also accelerated 
if we're going to actually license these machines.
    Chairman Weber. Got you. Thank you. And I apologize to my 
colleagues, I'm a little over time. The gentleman from Florida, 
Mr. Grayson, you're recognized for questions.
    Mr. Grayson. Thank you, Mr. Chairman. Mr. Gilliland, some 
of the problems associated with using fission for power 
generation are meltdowns, radioactive waste, and nuclear 
proliferation. There are other problems as well. Can you please 
elaborate on your testimony on why fusion may be able to avoid 
some of the problems associated with fission?
    Mr. Gilliland. Yes, absolutely. Ultimately it starts with 
the reaction itself, so--fission is a large atom that can react 
spontaneously. Fusion is done with hydrogen only, and it's 
impossible for fusion to happen spontaneously, so--it's a 
difficult reaction to get started, therefore very difficult, or 
impossible, for it to start on its own.
    So in a fusion reaction the byproducts are helium and heat, 
and--or high energy neutrons, so there's not--there are not 
long-lived radioactive waste materials produced at all. Using 
hydrogen it is certainly difficult to figure out how that could 
lead to proliferation challenges as well. So it, you know, it--
we do have normal safety challenges that any power plant would 
have. It's not that it's without risk completely, but certainly 
long-lived radioactive waste is not one of them.
    Mr. Grayson. All right. Now, your company is developing and 
advancing a unique fusion energy design that falls into a 
category of fusion energy concepts called magnetized target 
fusion. What is that?
    Mr. Gilliland. Magnetized target fusion, I think it's worth 
stepping back for a second and describing kind of the 
mainstream longstanding fusion programs at a high level. ITER 
and magnetic fusion use a low density plasma, much less dense 
than air, and hold it together with large superconducting 
magnets, and hold it together for long periods of time, even 
continuously. Laser fusion is sort of the other extreme, where 
a little fuel pellet is slammed with lasers in nanoseconds or 
picoseconds.
    The idea behind magnetized target fusion and other what we 
call middle ground fusion approaches is that those extremes are 
extremes. They're extremes, makes them expensive. So big 
superconducting magnets cooled to 2 degrees Kelvin are 
expensive, as are, you know, using the world's largest lasers. 
It's not that those pathways aren't viable, they're just--they 
appear to be expensive. So the middle ground uses density 
between the two, and speed of compression--speeds of shrinking 
that plasma that are much slower than laser fusion. So, in our 
case, we compress a plasma, called a spheromak plasma, in about 
80 microseconds, which is obviously much slower than the 
picoseconds or nanoseconds of laser fusion. So the idea is 
just--simply put, it's to avoid the extremes, and become much 
lower cost, and ultimately more practical.
    Mr. Grayson. Now, my understanding is that your design has 
no permanent home in U.S. energy research, but is funded by a 
temporary ARPA-E program that you noted yourself in your 
testimony. Is there a value, in your opinion, to having such 
research permanently funded as a regular part of energy 
research by the federal government?
    Mr. Gilliland. Sure. So I would comment, you know, ARPA-E 
has done a great job on a fusion program. I think they are 
still in the middle of negotiating with the various recipients, 
so, you know, whether or not we are a recipient of that I don't 
know at this time.
    However, to your question, I think it's vital that the U.S. 
support this middle ground, and I think the primary reason is 
that a lot of significant progress can be made for small 
dollars, so some of these middle approaches are absolutely 
viable, some are not. We don't know that--you don't know which 
is which yet, but it will not take billions of dollars to 
determine that.
    So, you know, I think funding is one, but I think in my 
testimony I mentioned let's work together, labs and private 
companies, around simulation codes. Let's work together around 
exchange of Ph.D.'s and physicists. I think there's some simple 
things we can do to accelerate progress as well, but ultimately 
I do, obviously, support this middle ground of fusion.
    Mr. Grayson. What's a rough timeframe that you could 
provide, allowing for, no undue optimism, for achieving that 
energy production?
    Mr. Gilliland. It's a difficult question, there's no 
question about that. I think there's an interesting graph that 
plots Moore's Law against fusion progress. So, fusion progress 
being how much energy out of a reaction are we getting in, are 
you--how much are we getting out for what we're putting in? And 
it's actually quite interesting, they parallel each other.
    So I think the question is--it's, you know, we're nearly 
there. I think the large programs had determined that it can be 
done, and now it's a question of just how do we it 
commercially? How do we do it economically? And I think that's 
the question, right? So I think there's two steps involved. One 
is building an alpha power plant, or a prototype plant that 
demonstrates reliability, and then second building commercial 
plants.
    So I'm spinning around your answer--or your question a 
little bit, but, you know, we're certainly several years away. 
I would like to think that we, as a set of alternative 
concepts, can get there in, you know, the next five or ten 
years, given the basket of options that are out there. I'm 
optimistic that, within that basket and that timeframe, we'll 
get there.
    Mr. Grayson. Thank you.
    Chairman Weber. The gentleman from California is 
recognized.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. Years 
ago I used to believe that the environmentalist community was 
being, how do you say, alarmist when it came to nuclear energy. 
And I have seen a lot of alarmism come out of the environmental 
community that has not been accurate, but let me just say that 
in the case of nuclear energy, as time has gone on, and more 
information has been available, I think the environmental 
community over the years has been on target on this issue. The 
fact is that nuclear energy, as we are now using it, is very 
dangerous, and as now there are--there's leftover waste to deal 
with with the way we produce nuclear energy today.
    So that's a big concession for me. In the number of debates 
that I had with environmental activities, they were right about 
that. But we are capable of technologically meeting those 
challenges that were brought up. And--whether it's leftover 
waste, or whether it's a safer way of producing nuclear energy 
that wouldn't have the same type of dangers associated with our 
current plants, we can do that.
    I especially want to acknowledge our friends at General 
Atomics, who have been in the forefront, and spent a lot of 
their own money over the years trying to develop a new and next 
generation of nuclear energy that is safe, and won't have the 
massive leftover waste problem for decades, if not centuries to 
come.
    I--but the government has to play a role in this as well. 
If we're going to have the benefits of nuclear energy, and--
because private companies can't make this jump on their own, 
but once that jump is made, our private companies will be able 
to then, on their own, to build these next generation of 
nuclear power plants.
    So I would like to go on the record, absolutely, saying 
this idea of having an open access facility is perhaps the most 
important thing we can do to provide America's long term energy 
interests, because it doesn't mean that just General Atomics, 
or any other company that is investing in this, and looking 
down this road. It will be available to all of those 
approaches. And, after his facility is available, we will know 
which is the best one to go with, which is the best way to go.
    So this is a--what is not a good use of our money, however, 
is something that is aimed at fusion, rather than fission. And 
we can do these fission reactors--with all due respect to the 
last witness, boy, now we know it's possible. We've spent I 
don't know how many billions of dollars to find that it's 
possible? No. After spending billions of dollars, we should 
actually be at a point where we can--not only is it possible, 
but we'll have it ready within two or three years, whatever 
that is. But we're nowhere near that with fusion. But we do 
know that if we focus on this next generation of fission 
reactors, especially modular fission reactors, we actually can 
do it, and do the job, rather than just know that it's 
possible.
    Let me note that we have spent--I would like to ask my 
friend from General Atomics, the--in what--the actual 
configuration of the next generation of nuclear reactor that 
you're working on, the people in Japan were sold a bill of 
goods that what they were given was totally safe. And now what 
happens, we, you know, we've seen this catastrophe in Japan. 
Would the model you're working on, and perhaps the other models 
that people are working on, would that protect us from that 
type of situation they have in Japan?
    Dr. Parmentola. Yes, thank you for the question. And, 
actually, I brought some results of our work with me. This is a 
revolutionary new cladding. It's made from ceramic materials. 
These materials undergo a transition from solid to gas at about 
2,600 degrees. They lose their strength at about 2,000 degrees 
Centigrade. I point out to people that the metal that exists in 
current light water reactors begins to lose strength at about 
700, so this increases the safety margin by a factor of almost 
three.
    Also, these materials even benefit a light water reactor, 
and we've developed them for our advance reactor. So there's 
another version of this that we're working on to make light 
water reactors meltdown-proof. Because this material does not 
react with water at any temperature, so you can't have the kind 
of runaway reactions that generate huge amounts of heat inside 
the reactor that melt the core. It's not possible with these 
materials.
    So if we invest in materials like this, it has multiple 
benefits across a number of reactor designs. Of course, the one 
that we're most interested in is EM-2, and EM-2 has a certain 
unique characteristic to it in that it utilizes these 
materials, but what it does is it provides a high power small 
reactor, so you get more bang for your buck, in terms of the 
capital investment, and the output of the reactor. And at the 
same time, one that is inherently safe because of these 
materials that we're developing.
    But these materials require significant amounts of testing 
to prove them out, so this way we can convince the Nuclear 
Regulatory Commission that these type of materials can actually 
make fission reactors safe. And that's the principle reason why 
we're pursuing this.
    Mr. Rohrabacher. If you'd indulge me one more question, Mr. 
Chairman? Would that be possible to retrofit some of our 
current----
    Dr. Parmentola. Yeah.
    Mr. Rohrabacher. So some of our current light water 
reactors----
    Dr. Parmentola. Yeah.
    Mr. Rohrabacher. --which have a lot longer life on them 
could be refitted with that material?
    Dr. Parmentola. Exactly. So I have two types of cladding. 
This cladding here, the thin one, goes into light water 
reactors. The rods, these rods, are 14 feet tall. They go into 
the reactor, and they have fuel inside. This one is for EM-2, 
which is a totally different design. We pack more fuel in the 
core of EM-2 to increase its power density. But this material 
ensures safety.
    Mr. Rohrabacher. Thank you very much, and thank you, Mr. 
Chairman, for holding this hearing. I think it's vitally 
important that we not write off nuclear energy as a potential 
source for energy. It's--as the witnesses have stated, it's 
clean. It will not--it--I don't believe in global warming, but 
I do believe in clean air, and this will go a long way to 
providing energy for the world, and for the people of the 
United States. Thank you very much.
    Chairman Weber. I thank the gentleman, who yields back. And 
now, Mr. Lipinski, you're recognized.
    Mr. Lipinski. Thank you, Mr. Chairman. Thank you for 
holding this hearing, and I would like to say, I do agree with 
Mr. Rohrabacher, except for I do believe in global climate 
change, but I think together we need to work to bring, you 
know, nuclear energy--it's something that we have to, first of 
all, maintain America's leadership on the innovation when it 
comes to nuclear energy and nuclear technologies, and we need 
to transition to advanced nuclear technologies, like fast 
reactors. And I hope to get language in the Competes bill 
supporting advanced nuclear reactor test facilities. So I think 
it's very important that we do move ahead, and research is 
critical, and that's what we're here to talk about.
    For Dr. Peters, Illinois has been a leader in nuclear 
reactors since the first reactor was developed by Enrico Fermi 
at Met Lab, now renamed Argonne. Thank you for your leadership 
in keeping Argonne, and Illinois, a leader in nuclear energy 
innovation. Moving forward, I want to ask, what are Argonne's 
research and development priorities, and how do these 
priorities compliment work at other national labs, and fit into 
the DOE's strategic direction?
    Dr. Peters. Morning, Congressman, thank you for the 
question. So we at Argonne continue to have strong 
capabilities, broadly speaking, in advanced reactor design and 
analysis, fast reactors in particular, but also a broader set 
of expertise that also supports light water reactor 
sustainability, and also thinking extensively about potential 
fuel cycle options, either repositories, or closing the fuel 
cycle.
    So we have that broad set of capabilities, where we also 
are working very closely with our sister laboratories, in 
particular Oak Ridge National Lab and Idaho National 
Laboratory. So we're spending a lot of time, as three labs, 
working with DOE, in cooperation with DOE, to ensure that the 
labs are working together strategically, not--and complementing 
each other, and so I think that's a very healthy conversation, 
and it's ongoing, and it's been very positive.
    But our strategic interests, we really think it's 
important--our primary role would be to really think about 
what's the next set of systems that we--one would develop, 
demonstrate, and ultimately commercialize, both in the fuel 
cycle, as well as reactors for electricity. And then also, 
using our foundation in nuclear to also be a part of the 
technical basis for securing safe and secure operation 
worldwide as nuclear expands.
    Mr. Lipinski. Thank you. And I also want to move on to 
other collaborations, specifically between the national labs 
and industry, because I think that's important to improve U.S. 
research investments by leveraging private sector expertise, 
and helping to bring new technology to the market. I know 
Argonne has been particularly effective in engaging with the 
private sector, for example collaborating with General Electric 
on the development of experimental boiling water reactors. 
These reactors now make up about 1/3 of the U.S. reactor fleet. 
So I wanted to ask you, Dr. Peters, what can we do here in 
Washington to support these types of collaborations?
    Dr. Peters. The lab--thank you for the question. And the 
history of the lab has been that we've been deeply committed to 
these partnerships, and that's an important part of it, but 
currently the Department of Energy is making it very clear that 
they value the labs working in cooperation with industry, so 
that's really, really important. So I know the work of this 
Committee on thinking about how we continue to enhance tech 
transfer, I'll call it, from the labs to industry. Those 
conversations are very healthy, and very important.
    Again, DOE is deeply committed, but I think we can always 
continue to talk about it, and continue to explore ways to 
become more efficient. But from the labs perspective, you know, 
we do basic science, we do applied science and technology, but 
ultimately, regardless of timeframe that it takes, the research 
has to ultimately have an impact, and that means getting out to 
industry, into the market, and improving peoples' lives. So 
that's at the highest levels of commitment that the labs have, 
and I think the DOE shares that. They do share that commitment, 
and I know you do as well.
    So continuing to just look at the detailed processes, and 
continuing to figure out how to become more efficient, and 
align the values of industry with the Federal R&D 
infrastructure are just vital.
    Mr. Lipinski. Thank you. And I'll yield back.
    Chairman Weber. I thank the gentleman. Mr. Hultgren, you're 
recognized for five minutes.
    Mr. Hultgren. Thank you, Mr. Chairman. Thank you to all of 
our witnesses. Dr. Peters, it's always so good to see you. 
Certainly love being able to tell the great story of all the 
good things that are happening in Illinois. Good news for the 
rest of the Committee is having you here means they don't have 
to listen to me, and they can be much better informed hearing 
from you, so----
    Chairman Weber. Amen.
    Mr. Hultgren. --I'm glad you're here. Hey, watch it. 
Illinois is certainly the leading nuclear state in the nation, 
and I do appreciate the role the federal government has had in 
the development of nuclear technologies. Earlier this year the 
Committee passed legislation that I had introduced, among other 
things, that would require DOE to examine their capabilities to 
authorize, host, and oversee privately funded reactor 
prototypes and related demonstration facilities. It was 
certainly good to hear from our witnesses today about the 
ongoing debate that this department, the research community, 
and the industrial base has already been having on this topic.
    Wanted to address my first question to Dr. Parmentola, and 
also to Dr. Peters. Some argue that open access user facilities 
are a more effective mechanism to enable investment and 
accelerate technological growth, compared to a cost-share 
agreement between the government and the private sector to 
deploy new technologies. I wonder, which type of federally 
funded investment do you believe is most effective to 
accelerate this growth, and wonder if you could explain it?
    Dr. Parmentola. Yes. Thank you very much for the question. 
So I can only tell you the way industry looks at cost sharing 
arrangements. Industry is very conservative. It has to do with 
the nature of what we do. We produce products, and we have to 
show a bottom line and a profit, so dollars we spend are very 
precious. What happens, in my experience, with cost share is 
that industry will look at it and take an opportunity to go 
with something low risk, and take advantage of the fact that 
the government is willing to provide a cost share for it. And 
what this does is it reduces innovation, in my opinion, because 
what we need in industry is more risk taking. Of course, the 
national labs undertake risk taking, but if we're going to try 
to advance technology, and get it into the commercial world, 
industry has to also undertake risk taking.
    So, in my opinion, over 40 years of being involved in the 
research and development in this nation, what matters the most, 
in terms of high quality R&D, is competition, and being able to 
challenge the community. And by the community I just don't mean 
universities, I mean national labs and industry, to undertake 
high risk, high payoff research. The way to do that is to adopt 
standards, very high standards, and also goals--technical goals 
that challenge the community and allow industry to compete. And 
I think, without a cost share, you're likely to drive industry 
towards more risk taking than less risk taking. And it's really 
up to the agencies to do this. They have to take charge of this 
and actually meet the standards that are required.
    Mr. Hultgren. Thank you. Dr. Peters, before you answer, let 
me add one part to this that I would like to get your comments 
on just--and then I'll leave the rest of my time to you. How 
would you envision our national labs, such as Argonne, 
assisting in the process with NRC? Does the DOE need to take a 
more informative role with NRC? So I wonder if you could talk a 
little bit about, again, my first question there, but also 
following up a little bit on what the Chairman had started.
    Dr. Peters. Good morning, Congressman.
    Mr. Hultgren. Good morning, Dr. Peters. Continue.
    Dr. Peters. So, on the first question, in my testimony I 
referred to a test bed, and actually I think it's very similar 
to what you're referring to in the legislation. And Dr. 
Parmentola used the user facility model as a way to have the 
conversation, and I agree with him. You can set up a facility--
a set of facilities that provide the ability to test and 
demonstrate advanced technologies, and do it in such a way that 
you could either do it in a pretty competitive, more open 
sense, or you could actually have aspects of it where 
industries actually bring in resources in doing proprietary 
work as well. We can--we do that, as you know----
    Mr. Hultgren. Um-hum.
    Dr. Peters. --at the existing scientific facilities, like 
the advanced photon source. There's a model for that. So, to 
me, I think there's a lot--I agree with Dr. Parmentola, that 
translates. So there's a lot to be done to define what this 
test bed would look like, and that would have to be something 
the labs, the government, universities, and industry work 
together to define the requirement set. But I think they would 
be able to push us ahead in a way that you're not necessarily 
picking a winning concept, but there's a test bed there for all 
to come test their concepts, demonstrate their concepts, and 
ultimately that will then lead to what makes sense in the 
market.
    Mr. Hultgren. Great.
    Dr. Peters. On your second question, so--specifically I had 
addressed the Chairman's question earlier on the NRC. 
Specifically, there's activity already going on between the DOE 
and NRC that the labs are supporting, our lab and a few other 
labs are supporting, to develop general--what we call general 
design criteria. So looking at advanced systems, like a high 
temperature gas reactor, or a sodium fast reactor, for example, 
and developing detailed general design criteria that one would 
use that would inform the regulatory basis going forward.
    So, we know what needs to be done. It's more a question of 
what's the priority, because right now the NRC is, 
understandably, completely focused on regulating the existing 
fleet, and also watching the new construction of some of the 
Gen Three plus reactors in the southeast. But the--we know what 
we need to do. It's just a question of if we want to get to 
these advanced machines in a more timely manner, we just have 
to increase priority on the effort.
    Mr. Hultgren. I agree, and I do believe Argonne, and other 
labs, have a pivotal role, a vital role, and I want to make 
sure that we can have you be part of that. So, thank you, 
Chairman, I appreciate the time. Yield back.
    Chairman Weber. Thank you. And, in that context, very 
quickly, if I may, according to research, the Manhattan 
Project, which was '42 to '46, cost $2 billion, okay? 90 
percent of that was in the production of the factories and the 
fissile material, and less than 10 percent was actually used in 
the R&D for the weapons. In today's dollars, that's $26 
billion, with a B, dollars. So who's going to invest that kind 
of money?
    Thank you for the indulgence, and the Chairman--I mean the 
gentleman from California is recognized.
    Mr. Swalwell. Thank you, Chair. I represent Lawrence 
Livermore National Laboratory and Sandia National Laboratory in 
Livermore, California, in the 15th District, and appreciate our 
witnesses here, and also Dr. Peters, what--the work you do at 
Argonne, is that correct?
    My question is for Mr. Gilliland. And--in your testimony, 
you're pretty forceful on the potential power of fusion energy, 
and--for example, you write that the game changing nature of 
fusion energy bears repeating, energy production that is safe, 
clean, and abundant that would change the landscape of energy 
forever, and greatly enhance energy security.
    At the two national laboratories I work--that I represent, 
they do a lot of work in fusion energy. For example, at 
Lawrence Livermore, they have the National Ignition Facility, 
the largest inertial fusion facility in the world, which is an 
amazing research tool, which has produced a wealth of 
information, but its primary goal right now is to assist in the 
maintenance of the nuclear weapon stockpile. However, we have 
long term hopes that it can be a sustainable energy source in 
the future.
    So, keeping that in mind--and Representative Lofgren, who's 
on this Committee as well, she has worked with me on supporting 
fusion--but keeping that in mind, do you think, Mr. Gilliland, 
that the federal government is spending enough to support 
fusion energy research, and if not, do you have a dollar amount 
in mind as to how much more we should spend? And would it be 
helpful to have an actually dedicated funding source for 
research into all different types of fusion, including 
inertial, for energy applications?
    Mr. Gilliland. I would echo your comments on the National 
Ignition Facility, and their leadership in the fusion energy 
space. You mentioned that their primary goal is around weapons, 
however, they're making huge steps in fusion energy as well. I 
think the number is they have improved by about 100 times their 
fusion yield in the last three years. So I certainly believe 
that continued support, and even enhanced support, of National 
Ignition Facility is warranted. Similarly, Sandia has an 
alternative approach called Z Pinch, which I won't get into the 
details of, but they've also demonstrated a huge amount of 
progress. So we're certainly supportive of all of the concepts 
of fusion, including magnetic fusion, that General Atomics is 
quite involved in.
    I think were funding could, you know, and--make a big 
difference is in some of the alternative approaches. Most of 
the dollars go toward magnetic fusion or inertial confinement 
fusion, both of which have benefits, and both of which have 
created really a base of research that everyone is benefitting 
from. I think the difference is that some of these middle 
ground concepts, like ours, and a number of others, do have the 
potential to be faster and less expensive because of the--we 
don't need lasers or superconducting magnets.
    So I think it's a basket of alternatives, and it should be 
approached that way. Each have their pros and cons across the 
spectrum. So I can't give you a dollar amount, but certainly 
support, and enhanced support I think is absolutely warranted 
because--the final point I would make is whether it is fission, 
or fusion, or others, the world needs more energy, and energy 
is fundamental to the entire economy. So it's not one or the 
other, it's all.
    Mr. Swalwell. Thank you. And also, with respect to, you 
know, Dr. Parmentola and Mr. Peters suggested that the federal 
government should develop a new nuclear reactor facility to 
test innovative reactor ideas, now, knowing that we have, you 
know, few Federal dollars allocated for this type of research, 
and it doesn't look like the trend is going up, it's actually 
going down, do you have a--if you had to prioritize between 
fusion and nuclear reactors, any thoughts on that?
    Mr. Gilliland. How to prioritize between fission and 
fusion? Is that your----
    Mr. Swalwell. Yeah.
    Mr. Gilliland. --that your question? Again, I think they 
both have their pros and cons, right? I think fission certainly 
has the waste issue to deal with, proliferation and so forth, 
but there are certainly a number of viable pathways that 
fission has demonstrated, with small modular reactors and so 
forth. So I think that it's a little bit of an apple and orange 
comparison.
    I think a demonstration facility could have both. I don't 
know why it couldn't have both. I think creating a regulatory 
framework is helpful for all of us, and, again, I don't--I 
think it would be beneficial for us all to have it at one 
location.
    Mr. Swalwell. Thank you. And, Mr. Chair, I yield back.
    Chairman Weber. I thank the gentleman. The gentleman from 
Illinois, Mr. Foster, is recognized.
    Mr. Foster. Thank you, Mr. Chairman, and I appreciate the 
opportunity to attend this, despite not actually being formally 
on this Subcommittee. The--let's see. First question--first I 
would like to say that I'm a big fan of turning up research in 
this field. You know, the payoff if one of these comes up with 
a home run, and a really viable zero carbon energy source for 
our world, is enormous.
    But ultimately, you know, the thing that I struggle with is 
the business of design studies that look at projected costs of 
electricity, which is ultimately the endpoint on this. And so 
the difficulty you get into there is you're comparing 
technologies with different levels of maturity. And, you know, 
ultimately we're resource constrained. You know, we've now 
decided to make what's--looks like a--between a $3 and $4 
billion bet on tokamak fusion, you know, leveraging that to 
roughly 10 times that amount offshore. And, you know, we may or 
may not decide to do the same sort of leveraging in making a 
U.S. investment into offshore fission technologies that are 
being developed.
    And so--but ultimately what we're looking for is the 
cheapest way of making zero carbon electricity. And--so there 
is certainly a role in doing design studies, just say pretend 
the technology works, and what would the cost of electricity 
be, if it all works according to your dreams? You know, there 
are big dangers there, because you can lose that bet, and--or 
find that, to make it work, you have to add a lot of costs to 
things.
    But how do we, you know, how should Congress think about 
and handle that? Is this best left to separate--to committees? 
You know, the problem is that committees--all--knowledgeable 
people on committees are always composed of advocates for their 
technology, and you can balance the committee in different ways 
and get whatever answer you want, depending on how you choose 
to balance those committees.
    And so if--so I guess my question is do you think that 
we're putting enough effort into the sort of design studies 
that I'm talking about, where you say, just pretend the 
technology works, does it ever have a chance of being cheaper? 
You know, this is something that's often talked about, for 
example, in terms of laser driven fusion, that if you just look 
at the wall power efficiency, you know, everything you'll have 
to do to get the compression, I guess--I--sorry I missed your 
presentation, Mr. Gilliland, but, from what I understand, your 
technology, you anticipate a higher efficiency, wall plug 
efficiency, in terms of getting the fusion to happen. And 
that's a, you know, that's a real argument when you look at the 
final thing.
    But I--my question is, are we putting enough effort into 
that, and the right kind of effort, into these design--these 
studies of what the theoretical cost of electricity should be, 
or are--is--are things just so far away, and such a big 
spectrum in their R&D readiness to make those--to be able to 
make those sensible comparisons? So anyone wants to comment 
on--yeah, Dr. Parmentola.
    Dr. Parmentola. I can only talk about how General Atomics 
has tried to address the issue that you're raising. We've 
looked at basic physics to tell us what we need to do in order 
to be able to improve the price point of electricity. Of 
course, it's tied to financial models, but when you look at the 
financial models, the financial models tell you a story.
    So, for example, the biggest driver for costs is the cost 
of capital, which has to do with the risk premium associated 
with what you're doing. And so we thought about that. What we 
need to do there is change the paradigm as to how we fabricate, 
manufacture, assemble, and deploy nuclear reactors, okay?
    The next most important, which is physics-based, is 
efficiency. And we carefully looked at this, and we tried to 
look at how we could increase the efficiency of a nuclear 
reactor, and we've come up with a design that indicates that we 
could get over 50 percent efficiency, which is 20 percentage 
points above what we can do today. And I'll remind people that 
for every percentage improvement in efficiency, that adds a 
half a billion dollars to the bottom line over 30 years. So 
you're talking about $10 billion more in the pocket of a 
utility who's selling electricity.
    Mr. Foster. You're also talking about turning up the peak 
operating----
    Dr. Parmentola. Correct.
    Mr. Foster. --components, and----
    Dr. Parmentola. Right, and that's the reason why you have 
to go to new materials----
    Mr. Foster. Yeah.
    Dr. Parmentola. --because the materials can't deal with it, 
but this is fundamental research that we have to do. And, of 
course, the government should be sponsoring that type of high 
risk research because the payoff can be tremendous.
    And so the next one is capital costs, right? And, of 
course, what you want to do is try to reduce the capital costs. 
The thought is, well, if you make reactors smaller, you can 
reduce the material costs, but you have to have enough power 
output to compensate, right, for the reduction in size. So 
that, again, drives to a higher temperature, more--higher power 
density, and so on.
    The physics tells you what to do, and that translates into 
the financial model. Then, of course, it's a matter of 
achieving the technical goals through research that you need to 
achieve in order to be able to get there. And that's really 
what--a facility that we're advocating, this new type of test 
facility, user facility. We do. In that user facility, we 
create competition, natural competition amongst those who are 
trying to achieve these advanced reactors. And, to me, that's 
the best way of sorting out which ones are going to survive, 
and which ones are not.
    Mr. Foster. Um-hum. All right. Well, thank you.
    Dr. Peters. Could I make an--is that okay, Mr. Chairman?
    Chairman Weber. Yes, sir.
    Dr. Peters. Morning, Congressman. So I would say you're 
aware of the various analyses tools that are done by the 
various parties that are out there, as you said already in your 
remarks. And you have the DOEEIA does projections, and then, of 
course, all the various advocacy groups do their own projects, 
as you pointed out. And now you have a QER and a QTR that the 
DOE's doing that I think are important steps.
    My observation would be that I think you're on the right 
track, because I think we haven't yet gotten to where we have 
an objective set of tools that can think about advanced 
technology, and technology insertion, into the discussion. At 
least I am not aware of very many robust objective tools put 
there.
    So, to me, if we're going to sit here and talk about 
important things like fusion, and Generation IV fission 
reactors, they're at various stages in their TRL level, right? 
And I think we could probably model that. We could understand 
that and model it, but we're not really doing it in a 
comprehensive way, looking at the whole energy system. So I 
think there would be a place for that kind of analysis. I am 
not aware of a robust objective program that's going after it, 
though.
    Mr. Foster. Yeah. Well, we'd have to spend, you know, the 
whole----
    Dr. Peters. Right.
    Mr. Foster. --fission----
    Dr. Peters. Right.
    Mr. Foster. --space, and that's difficult to assemble.
    Dr. Peters. Right. Yeah, and it would be--complex--labs, 
universities. It would be a--quite a big undertaking, but very 
informative, I think.
    Mr. Foster. Right. Thank you, and I guess I'm well over 
time, and I should yield back.
    Chairman Weber. We'll just take it out of your next five 
minutes. But the gentleman yields back, no problem. Mr. Batten, 
I, you know, I said earlier that I applaud you, your 
collaboration and your efforts and stuff, and thank you again 
for being here, but I wanted to give you--and I went way over 
my time, Mr. Foster, by the way. What I----
    Mr. Foster. I remember.
    Chairman Weber. What I wanted to ask was would you 
elaborate on your experience with working with Argonne National 
Lab in--and what was the best thing about it, the worst thing 
about it, the most frustrating thing about it? How could you--I 
know I'm putting you on the spot. How could we help improve the 
process?
    Mr. Batten. Well, this is the first CRADA we had ever 
participated in, so it took us a while to just get ourselves up 
to speed on the process, and understand the agreement, and that 
sort of thing. But after we did that, we had a very good 
experience working with the lab, in terms of just kind of 
working out the cooperative agreement.
    I would say by far the best thing about our experience is 
the technical work of the lab. For--I mean, I'm a layperson 
scientifically, but my impression is the--Argonne's technical 
work has just been superb. And, of course, it built on--that's 
because they have great people, but also they have all this 
expertise that they've built upon, all their past work.
    Chairman Weber. Okay. Dr. Peters' check is in the mail to 
you.
    Dr. Peters. Thank you, sir.
    Mr. Batten. It's true----
    Chairman Weber. And----
    Mr. Batten. --from my point of view.
    Chairman Weber. Well, we love hearing that. Any suggestions 
to improve--I know you were kind of on virgin territory there.
    Mr. Batten. Right.
    Chairman Weber. Any suggestions on how we--improving that 
process?
    Mr. Batten. I do not have any.
    Chairman Weber. No, yeah. So have you produced an outline, 
a white paper, on how the next collaborative process will work?
    Mr. Batten. Well, I guess the question--I'll maybe answer 
that a little bit more broadly, sort of what would the next 
steps be. The--what the CRADA produced--the main thing the 
CRADA produced was a conceptual design which produced a cost 
estimate, and the CRADA report should be out in a couple 
months, and we'll know what that cost will be. Because--what we 
hope is that Congress will authorize the development of the 
pilot facility, but we thought you wouldn't really want to do 
that until you had some idea of what it would cost.
    Chairman Weber. Well, and that's why, you know, I referred 
to it earlier as a kind of a library facility, where, you know, 
we could provide the facility, and the books and stuff could be 
there for people to come and check out, if you will, and that 
would hopefully be an incentive for us to be able to take that 
next step you're talking about.
    And the Chair now recognizes Mr. Grayson.
    Mr. Grayson. Thank you. Uranium is fuel for nuclear 
reactors. If the industry were healthy, one would expect the 
price of uranium to be going up. In fact, the price of uranium 
is now 1/4 what it was eight years ago. What does that tell us 
about the market's assessment of the future of nuclear energy? 
Dr. Peters?
    Dr. Peters. I'm not an economist, but I would say that the 
current state of nuclear energy vis-`-vis the role of natural 
gas and that, the role of deregulation, et cetera, is having 
significant impact on the economics of nuclear reactors as they 
currently operate, and also as currently envisioned to be built 
in the next, say, decade. But I would say uranium's abundant. 
There's plenty of it. I mean, we don't need to mine it, because 
we can still use uranium that's been mined decades ago. As part 
of various proliferation programs, we can get uranium. So part 
of it is that there's hundreds of years of uranium. So one of 
the interesting questions would be, why recycle? It's hard to 
make an argument to recycle just based on uranium reserves, 
because there's plenty of it.
    So I--you're asking a very complex question, but I would 
say the economics in 2050 that would drive what the energy 
system looks like are going to be very different than they are 
today.
    Mr. Grayson. Dr. Parmentola, is the market basically trying 
to tell us that nuclear fission, as a market, is doomed, given 
the fact that uranium now costs 75 percent less than it did 
even seven years ago?
    Dr. Parmentola. Just so you understand, the--General 
Atomics is in the uranium mining business. We have uranium 
mines----
    Mr. Grayson. Um-hum.
    Dr. Parmentola. --in the United States, as well as 
overseas, you know.
    Mr. Grayson. Not doing too well lately, are you?
    Dr. Parmentola. So--and my boss is a very astute 
businessman, so he's in that business for a reason. And while, 
of course, with Fukushima, we saw a decline in the use of 
uranium in Japan, Germany has got out of the nuclear reactor 
business, Switzerland has sort of followed suit, the demand for 
uranium obviously has gone down, but I can tell you that there 
have been new deposits found, abundant ones, in Australia. With 
China surfacing as a major, major nuclear energy producer, they 
have the largest number of reactors on--in development now, 30, 
that'll be a lucrative business. India as well.
    And I have to say, it's--with fast reactors, it's not just 
uranium that is a fuel. Thorium is also. And if you do an 
analysis of using both uranium and thorium as a source with 
fast reactors, that have a closed cycle, you have enough, based 
upon known reserves, including the waste, to last you 2,000 
years. That's just known reserves. If I went and--into the 
ocean, there's more uranium in the ocean that there is on land.
    Mr. Grayson. Water also. There's more water in the ocean 
than there is on land.
    Dr. Parmentola. Yeah, right, but there's a huge amount of 
uranium in the oceans. So the supply of uranium is--and even 
thorium is extremely large. I think it's great that a fuel is 
cheap, and that you can derive so much benefit out of it. It's 
great. Right now I can say to you tritium costs $100 million a 
kilogram. Right now, tritium, the known amount of tritium in 
the world, is $100 million a kilogram. So one of the challenges 
in fusion is to figure out a cost effective, economic way of 
producing it, so this way it can self-sustain itself.
    Mr. Grayson. All right. I would like to ask Dr. Peters--Dr. 
Peters, you used some interesting language in your testimony. 
You said that the country's leadership in global nuclear energy 
could be further compromised, that our country runs the risk of 
defaulting on the return of 7 decades of investment in nuclear 
science. By the way, you can't actually default on a return 
investment. That's not possible.
    Chairman Weber. Will the gentleman yield?
    Mr. Grayson. Sure.
    Chairman Weber. Now, this is spoken by a guy that has 
informed us that there's more water in the ocean on land, so 
you all might just take that with a grain of salt. I yield 
back.
    Mr. Grayson. Chairman needs to listen more closely to my 
quips. That's not correct. And the--we should be careful not to 
forfeit the legacy of many brilliant minds, another 
questionable mixed metaphor. But here's the thing, what--all 
you're describing here is the idea that we would take a step 
back from our nuclear fission program, and Germany has taken 
two or three or four steps back from its nuclear fission 
program. It's planning to shut it down entirely. What does 
Germany know that you don't know?
    Dr. Peters. Germany buys nuclear electricity from France. 
That would be one point that I would make.
    Mr. Grayson. Um-hum.
    Dr. Peters. So while Germany's made certain--I am not going 
to go any further than. So, from my perspective, setting aside 
that maybe I mixed metaphors--thanks for the feedback, I would 
say that we've invested, as a country, in unbelievable nuclear 
capabilities, and if we do not move forward with the next 
generation of technologies, that's going to erode. It's eroding 
slowly, and if we don't invest in the labs and universities, 
and the next generation, we're going to be sitting here a 
couple decades from now with no capability, and absolutely no 
seat at the table.
    Mr. Grayson. But--another interesting mixed metaphor. But, 
Dr. Parmentola, Germany has paid the price for its decision to 
eliminate its nuclear program. The price is that they are now 
the leader in solar technology around the world. They have the 
healthiest solar energy market of any major country in the 
entire world. Is that a price that we should be willing to pay 
as well?
    Dr. Parmentola. In my opinion, what--we--no one has a 
crystal ball, in terms of what to expect in the future in 
regard to the abundance, or lack thereof, of resources that--we 
didn't expect natural gas to be so cheap. And, by the way, the 
U.S. Government invested 30 years ago, 40 years ago, in the 
fundamental technology that enabled fracking to produce this. 
So, from an energy security point of view, your best bet is to 
have as many energy options as possible, because we can't 
predict the future. And nuclear is a technology that can meet 
the requirements that people are asking for, in terms of the 
economics, the waste reduction, the proliferation risk, and the 
safety. There's nothing in the laws of physics that would 
prevent that.
    What has happened, unfortunately to nuclear, it's been on 
the same technology for 60 years. If you look at any major 
technology that the U.S. has developed, and continues to 
develop, it's all been driven by research, and achieving 
performance, higher performance levels. Nuclear has not changed 
in 60 years. Its efficiency is back where it was, and we're 
using submarine technology that was designed, obviously, for 
submarines.
    Any other major technology that I can think of has been 
driven by research and development and performance. Pick 
transportation, either ground or air. Pick communications. Look 
at the mobile devices we carry around with us. Look at computer 
technology. Computer technology has undergone five paradigm 
shifts in the last 100 years, all based upon an advancement in 
the fundamental technology to advance computing.
    So nuclear stood still, and I think what Dr. Peters is 
talking about is the need for a research, and a research driven 
community. The nuclear community is not research driven, in my 
opinion, and I've been around research for 40 years. It's not. 
They want to build things. That isn't the way to develop new 
technology. You have to do research that drives. It's discovery 
first. Discovery drives invention, and invention drives 
innovation. That's the process. Right now, nuclear has remained 
stagnant because research is lacking. We haven't gone to higher 
performance technologies and materials to drive its 
performance. That's what's going to matter in the end.
    Mr. Grayson. All right, thanks. I yield back, and thank you 
all for your testimony today.
    Chairman Weber. I want to thank the witnesses for coming in 
today, and for your testimony. It's been very, very 
informative, and we appreciate you all being here. With that, 
our hearing's adjourned.
    [Whereupon, at 11:36 a.m., the Subcommittee was adjourned.]
                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


Responses by Dr. Mark Peters
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

Responses by Dr. John Parmentola
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                              Appendix II

                              ----------                              


                   Additional Material for the Record


             Prepared statement of Committee Ranking Member
                         Eddie Bernice Johsnon

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


              Report submitted by Mr. Frank Batten, Jr.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
